               Department of Veterans Affairs
               Office of Inspector General



                  Office of Healthcare Inspections

Report No. 12-04061-18


              Healthcare Inspection 


Alleged Computed Tomography Scan 

  Delays and Timekeeping Abuses 


          Dayton VA Medical Center 

               Dayton, Ohio 





November 20, 2013


                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
     Alleged Computed Tomography Scan Delays and Timekeeping Abuses, Dayton VAMC, Dayton, OH



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to a complainant’s allegations that the Dayton VA Medical
Center (facility) placed patients with stroke at risk for potential harm because computed
tomography (CT) imaging was not staffed 24 hours a day, 7 days a week. The
complainant specifically alleged that delays in obtaining CT scans after-hours reduced
the patients’ chances of getting tissue plasminogen activator (tPA) therapy, often
referred to as a “clot buster” drug. Additionally, the complainant alleged that a great
deal of overtime money was paid to CT technologists for call coverage after-hours,
when the CT section was not staffed.

We did not substantiate the allegation that after-hours on-call staffing resulted in
problematic delays in obtaining CT scans or provision of tPA therapy for acute stroke
patients. As a supporting stroke facility, the facility promptly transfers or diverts patients
acutely presenting with stroke symptoms to the community primary stroke center and
does not provide CT scans or tPA therapy in these cases. While emergency clinicians
were very clear about this process, some imaging staff were not.

The facility convened a compliance review and, later, an Administrative Investigation
Board (AIB) in response to concerns regarding overtime and timekeeping. The AIB
found irregularities in the overtime paid for after-hours CT coverage, but did not
substantiate that some timekeepers violated policies and procedures related to
timekeeping and privacy.

OHI concurred with the findings and recommendations of the facility’s compliance
review and AIB. We did not make any recommendations.

The Veterans Integrated Service Network and Facility Directors concurred with the
report. No further action is required.




                                                        JOHN D. DAIGH, JR., M.D.
                                                       Assistant Inspector General for
                                                         Healthcare Inspections




VA Office of Inspector General                                                               i
      Alleged Computed Tomography Scan Delays and Timekeeping Abuses, Dayton VAMC, Dayton, OH



                                              Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections (OHI)
conducted an inspection to assess the merit of allegations regarding patient care delays
and timekeeping abuses in Therapeutics and Diagnostic Imaging Service (Imaging
Service) at the Dayton VA Medical Center (facility), Dayton, OH.

                                          Background 

The facility provides a full range of inpatient and outpatient health care through medical,
surgical, mental health, home and community health programs, geriatric, physical
medicine and therapy services, neurology, oncology, dentistry, and hospice. The facility
has 507 beds, including 127 acute care; 265 nursing home; and 115 domiciliary beds.
In addition to supporting four community based outpatient clinics, the facility has
contracts with Wright Patterson Air Force Base and 11 area hospitals. The facility is
part of Veterans Integrated Service Network (VISN) 10.

A stroke results from blocked or altered blood flow to the brain and may result in
multiple complications or death. Veterans Health Administration (VHA) complies with
the National Institute of Neurological Disorders and Stroke recommendations in that, for
patients acutely (newly) presenting with stroke symptoms, a provider promptly orders a
computed tomography (CT) scan to diagnose or rule out stroke.1 If a stroke is
confirmed, thrombolytic (clot-busting) therapy, such as tissue plasminogen activator
(tPA) should be given within 3 hours of symptom onset.2 When facilities provide tPA for
acute stroke, specialty staff support, training, and services are needed due to risks of
intracranial hemorrhage and other complications.3

VHA designated each VA medical center as one of three levels of stroke-capable
facilities; as such, local stroke care, training, and use of community resources (where
VA capacity is absent) is based on this designation.4 VHA designated the subject
facility as a supporting stroke facility (SSF), and defines SSF as follows:

        A VHA SSF is a facility with limited capabilities related to staffing,
        technician coverage, study interpretation, or appropriate numbers and
        types of beds that does not allow for consistent care of patients presenting
        with acute stroke. Robust transfer agreements for in-hospital stroke and
        protocols, including Emergency Medical Services (EMS) diversion, must

1
  US Department of Veterans Affairs, Health Services Research and Development Service, “Acute Ischemic Stroke

Care for Veterans,” April 26, 2012, http://www.hsrd.research.va.gov/news/feature/stroke.cfm, accessed on 

8/26/2013.

2
  National Institute of Neurological Disorders and Stroke, “NINDS: Stroke Proceedings: Acute Care,” May 17, 

2011, http://www.ninds.nih.gov/news_and_events/proceedings/stroke_proceedings/recs-acute.htm, accessed on 

8/26/2013.

3
  Bambauer KZ, Johnston SC, Bambauer DE, Zivin JA, 2006, “Reasons Why Few Patients With Acute Stroke

Receive Tissue Plasminogen Activator,” Arch Neurol. 63(5):661-664, 

http://archneur.jamanetwork.com/article.aspx?articleid=791315, accessed on 8/26/2013.

4
  Supra, “Acute Ischemic Stroke Care for Veterans.”



VA Office of Inspector General                                                                               1
      Alleged Computed Tomography Scan Delays and Timekeeping Abuses, Dayton VAMC, Dayton, OH


        be in place to triage or transfer acute stroke patients to facilities offering a
        higher level of stroke care. Generally, these are either VHA PSCs
        [primary stroke centers], non-VA Joint Commission (JC), or state
        designated PSCs. VHA SSFs can, however, provide post-stroke medical
        care (excluding thrombolytic therapy), rehabilitation, and follow-up care.5

The facility’s local “Acute Ischemic Stroke” policy further describes their procedures and
role as an SSF as follows:

        […] we do not give [tissue] plasminogen activator (tPA) therapy. All tPA-
        eligible patients will be transferred to Miami Valley Hospital (MVH) for
        further evaluation and possible tPA therapy or other treatments. MVH is a
        Primary Stroke Center with neuro-interventional radiologists.        Local
        ambulance services will not transport patients with possible stroke to the
        Dayton VA Emergency Department (ED) because it is required to
        transport such patients to a Primary Stroke Center.

On July 29, 2012, an anonymous complainant contacted the OIG hotline and alleged
that patients with acute stroke were at risk for delayed intervention because the facility’s
computed technology (CT) section was not staffed 24 hours a day, 7 days a week
(24/7). The complainant specifically alleged that during after-hours, on-call6 CT staff
had 60 minutes to arrive to the facility causing delays with CT scans and subsequent
administration of tPA. Additionally, the complainant alleged that a great deal of
overtime money was paid to the CT technologists for after-hours call coverage, and
believed that an administrative reorganization would provide for 24/7 CT coverage at
significant cost savings to the facility.

                               Scope and Methodology 

We interviewed the complainant by telephone before conducting a site visit
April 22–25, 2013.

We conducted interviews with facility managers and staff. We reviewed relevant
literature, VHA and facility policies, procedures, committee minutes, technologist and
timekeeper training records, and technologist certification documents. We also
reviewed other documents pertaining to these allegations, including a compliance
review and an AIB completed by the facility. Additionally, we toured the Imaging
Service area.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.


5
  VHA Directive 2011-038, Treatment of Acute Ischemic Stroke (AIS), November 2, 2011. 

6
  CT staff rotate being “on call,” which means that, when a CT scan is ordered during non-business hours, facility

staff telephone the CT technologist with instructions to return to the facility to perform a study. 



VA Office of Inspector General                                                                                   2
      Alleged Computed Tomography Scan Delays and Timekeeping Abuses, Dayton VAMC, Dayton, OH



                                    Inspection Results 

Issue 1: Stroke Management

We did not substantiate the allegation that on-call staffing resulted in problematic delays
in obtaining after-hours CT scans or provision of tPA therapy for acute stroke patients.

The facility has a robust plan in place to divert or quickly transfer suspected acute
stroke patients from the facility to the community PSC. Further, the facility did not
provide tPA therapy or CT scans for these patients since both interventions are
managed at the community PSC.

We found that Emergency Department and Neurology Service clinicians were aware of
the facility’s classification as an SSF and of policy stating to divert or transfer any
patients with symptoms of acute stroke to the community PSC. However, some
Imaging Service staff told us they thought the facility was providing stroke management.
Following our site visit, facility leaders educated the Imaging Service staff on the local
“Acute Ischemic Stroke” policy.

Issue 2: Timekeeping

Overtime

The complainant alleged that reorganization of Imaging Services could eliminate
overtime costs associated with after-hours CT scans by cross training the general
radiology technologists in basic CT scanning, thereby providing CT imaging around the
clock. Additionally, we received reports of overtime irregularities from the Combined
Assessment Program’s Employee Assessment Review survey. We referred all of these
concerns to the facility’s leadership who initiated a compliance review. The results of
the compliance review prompted an Administrative Investigation Board (AIB),7 which
concluded July 15, 2013.

The compliance review determined that the CT technologist overtime was not in
alignment with the American Federation of Government Employees Union Master
Agreement. The AIB noted ambiguity among technologists as to the parameters that
constituted a “call back.” Additionally, the AIB found that the technologist’s initials that
appeared on the studies did not always match the technologist who was on call and
received overtime compensation for being on call.             Although the AIB did not
substantiate fraudulent overtime compensation on the part of the CT technologists, the
board found irregularities in the overtime paid for after-hours CT coverage.

The AIB recommended creation of specific policies and procedures to address Imaging
Service activities, call-back, and accountability; revisions to registration practices and


7
 VA Handbook 0700, Administrative Investigations, July 31, 2002, and VA Directive 0700, Administrative
Investigations, March 25, 2002.


VA Office of Inspector General                                                                           3
      Alleged Computed Tomography Scan Delays and Timekeeping Abuses, Dayton VAMC, Dayton, OH


overtime tracking; and a cost/benefit analysis of alternative staffing during peak
overtime hours.

OHI concurred with the findings and recommendations of the facility’s compliance
review and AIB. We made no recommendations.

Timekeeper Abuses and Irregularities

While not one of the complainant’s allegations, in the course of our investigation we
heard concerns that some timekeepers may have violated policies and procedures
related to timekeeping and privacy. We referred these concerns to the facility’s
leadership who included these issues in the compliance review and AIB.8

The compliance review team was unable to substantiate that timekeepers shared
confidential information related to timekeeping with staff or others who did not have a
need to know. The compliance review also did not substantiate that staff accessed
patient records without cause or a need to know.
The AIB described the timekeeping process as “chaotic and not uniform,” and the
compliance review included a recommendation for training of all timekeepers on
posting, call, call back, and overtime pay.

OHI concurred with the findings and recommendations of the facility’s compliance
review and AIB. We made no recommendations.

                                          Conclusions 

We did not substantiate the allegation that after-hours on-call staffing resulted in
problematic delays in obtaining CT scans or provision of tPA therapy for acute stroke
patients. As an SSF, the facility promptly transfers or diverts patients acutely presenting
with stroke symptoms to the community PSC and does not provide CT scans or tPA
therapy in these cases.

The facility convened a compliance review and, later, an AIB in response to concerns
regarding overtime and timekeeping. The AIB found irregularities in the overtime paid
for after-hours CT coverage, but did not substantiate that some timekeepers violated
policies and procedures related to timekeeping and privacy.

In summary, we concurred with the findings and recommendations made by the facility’s
compliance review and AIB. We made no recommendations.




8
 VA Handbook 0700, Administrative Investigations, July 31, 2002, and VA Directive 0700, Administrative
Investigations, March 25, 2002.


VA Office of Inspector General                                                                           4
     Alleged Computed Tomography Scan Delays and Timekeeping Abuses, Dayton VAMC, Dayton, OH
                                                                                 Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                               Memorandum


     Date:     October 4, 2013

    From:      VISN Director (10N10)

 Subject: 	 Alleged Computed Tomography Scan Delays and Timekeeping
            Abuses, Dayton VAMC, Dayton, OH

       To:     Director, Baltimore Office of Healthcare Inspections (54BA)

               Acting Director, Management Review Service (VHA 10AR MRS
               OIG Hotline)



               1. Thank you for this review and the opportunity to continue to
                  improve the quality and services of care provided to Veterans.

               2. I have reviewed the report and actions taken by the Dayton
                  VAMC to immediately address and resolve any findings.

               3. If you have any questions or require additional information, please
                  contact Jane Johnson, VISN 10 Deputy Quality Management
                  Officer at (513) 247-4631.




VA Office of Inspector General                                                            5
     Alleged Computed Tomography Scan Delays and Timekeeping Abuses, Dayton VAMC, Dayton, OH
                                                                                 Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs                               Memorandum


    Date:      October 3, 2013

   From:       Director, Dayton VA Medical Center (552/00)

Subject: 	     Alleged Computed Tomography Scan Delays and Timekeeping
               Abuses, Dayton VAMC, Dayton, OH

      To:      Director, VISN (10N10)

               1. Thank you for the opportunity to review and provide comments
                  to the draft report of the VA Office of Inspector General
                  Healthcare Inspections’ review of Alleged Computer
                  Tomography Scan Delays and Timekeeping Abuses at the
                  Dayton VA Medical Center Dayton, Ohio. I concur with the
                  findings.

               2. The acknowledgement of the facility’s robust plan to divert or
                  quickly transfer suspected acute stroke patients from the facility
                  to a community Primary Stroke Center is appreciated.

               3. The corrective action plans initiated quickly to address the
                  administrative issues identified by the facility’s Administrative
                  Investigation Board and Compliance Review are in progress.
                  The Dayton VAMC Leadership Team is committed to assuring
                  all actions are completed.

               4. If you have any questions or need additional information please
                  contact Lisa Durham, Chief, Quality Management, Dayton
                  VAMC at 937-268-6511 extension 7630.




                    Glenn Costie, FACHE




VA Office of Inspector General                                                            6
     Alleged Computed Tomography Scan Delays and Timekeeping Abuses, Dayton VAMC, Dayton, OH
                                                                                 Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Margie Chapin, RT (R, MR, CT), J.D., Team Leader
                         John D. Daigh, JR., M.D.
                         Nelson Miranda, LCSW
                         Melanie Oppat, MEd, LDN
                         Victor Rhee, MHS
                         Cynthia Gallegos, Program Support Assistant




VA Office of Inspector General                                                               7
     Alleged Computed Tomography Scan Delays and Timekeeping Abuses, Dayton VAMC, Dayton, OH
                                                                                 Appendix D
                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Healthcare System of Ohio (10N10)
Director, Dayton VA Medical Center (552/00)
Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Sherrod Brown, Daniel Coats, Joe Donnelly, Rob Portman
U.S. House of Representatives: John A. Boehner, Steve Chabot, Jim Jordan, Luke
Messer, Michael Turner

This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                            8
